       Former AmeriCorps Member Sentenced for Theft of Child Care Funds



Following a guilty plea in U.S. District Court, Sacramento, California, Ms. Sherry

Herndon, a former AmeriCorps member, was sentenced on August 22, 2002, to serve 120

days of home detention and sixty months supervised probation, to pay a $1,000 fine, a

$25 court fee, and make restitution of $10,006.28 to the Corporation for National and

Community Service (Corporation).



Following an investigation by the Corporation’s Office of Inspector General,

Ms. Herndon admitted to defrauding the Corporation by falsifying her applications for

child care and monthly child attendance reports, claiming child care for children no

longer in her custody. Ms. Herndon also failed to disclose that she was concurrently

receiving child care subsidies from the state of California, thereby receiving even more in

Federal child care subsidies than she was entitled. Ms. Herndon obtained $10,006.28 in

child care subsidies to which she was not entitled.
